CERTIFICATE OF COMPLIANCE WITH WORD LIMITATIONS
As required by Supreme Court Rule 33.1(h), I certify that the accompanying Brief of
the Cato Institute, National Association of Reversionary Property Owners, Reason
Foundation, Southeastern Legal Foundation, and Property Law Professors Shelley
Ross Saxer and James W. Ely, Jr., as Amici Curiae, complies with the word
limitations of Rule 33.1(g), and that it contains 3,566 words, excluding the parts of
the document that are exempted by Rule 33.1(d).
/s/ Mark F. (Thor) Hearne, II
MARK F. (THOR) HEARNE, II
True North Law, LLC
112 S. Hanley Road, Suite 200
St. Louis, MO 63105
(314) 296-4000
thor@truenorthlawgroup.com

